         STATUS OF

FAA’S MAJOR ACQUISITIONS
  Federal Aviation Administration

   Report Number: AV-2003-045
    Date Issued: June 26, 2003
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Status of the Federal Aviation                    Date:    June 26, 2003
           Administration’s Major Acquisitions
           AV-2003-045

  From:    Alexis M. Stefani                                      Reply to
                                                                  Attn. of:   JA-10:x60500
           Principal Assistant Inspector General for
            Auditing and Evaluation

    To:    Federal Aviation Administrator

           This is our second annual report on the Federal Aviation Administration’s (FAA)
           major acquisitions, which are part of its modernization effort. FAA is requesting
           $2.9 billion for Facilities and Equipment (F&E) funding for fiscal year (FY) 2004
           to increase the capacity, efficiency, security, and safety of the National Airspace
           System. The objective of our review was to evaluate program costs and schedules
           for FAA’s major acquisitions, and identify key issues affecting their
           implementation. Exhibit A provides details on our objective, scope and
           methodology for performing this review.

           This report covers 20 major FAA projects that have a current combined estimated
           cost of about $14.1 billion in F&E funds, and account for $1.2 billion requested
           for acquisitions in FY 2004. These projects include developing new precise
           satellite navigation systems, developing new weather systems for controllers, and
           acquiring new technologies to prevent accidents on runways and taxiways.

           In 1996, Congress exempted FAA from Federal procurement rules that the agency
           said hindered its ability to modernize the air traffic control system. Now, after
           7 years, FAA has made progress in reducing the time it takes to award contracts
           and progress has been made with some efforts, such as Free Flight Phase 1.
           However, the agency has not held managers accountable, or used the flexibilities
           and benefits of acquisition reform to control cost and schedule slips.

           We found that cost growth, schedule delays, and performance problems continue
           with FAA’s major acquisitions. Overall, the 20 projects we reviewed have
                                                                                                                        2


experienced cost growth of about $4.3 billion and schedule slips from 1 to 7 years.
Billion-dollar cost growth with acquisitions is not sustainable or affordable in light
of declining Trust Fund revenues. Moreover, FAA is just starting complex,
billion-dollar efforts while continuing to fund projects that have been delayed for
several years. If FAA does not exercise more management control over its
acquisitions, existing projects will be further delayed, and new projects may not
start as planned.

In light of our findings, FAA must take a number of steps to control costs of
acquisitions and get as much as it can with each acquisition dollar. Therefore, we
are recommending that FAA:

       • Update the cost, schedule, and performance baselines1 for many of its major
         acquisitions, including Standard Terminal Automation Replacement
         System, Integrated Terminal Weather System, Local Area Augmentation
         System, and Wide Area Augmentation System at a minimum. These
         baselines are misleading because they do not accurately reflect the true
         cost, schedule, or performance parameters for the projects. This process
         may require FAA to establish a new strategy that accelerates some projects
         and defers others.

       • Develop—and use—performance goals for assessing progress with its
         major acquisitions. This should involve holding staff and contractors
         accountable for keeping projects within cost and schedule, as appropriate.
         This is a step any business that pursues advanced technologies would take.

We periodically discussed this report with various FAA program officials. On
June 11, 2003, we held an exit conference with FAA’s Associate Administrator for
Research and Acquisitions to discuss this report and have incorporated his
comments where appropriate.


RESULTS IN BRIEF
FAA has made progress with a number of acquisitions, including Free Flight
Phase 1 and new information exchange systems that link FAA and airline
operations centers. Progress with Free Flight builds on the successful deployment
of the Display System Replacement, which provided new controller displays at


1
    For the purposes of our report, the term “baseline” refers to the cost, schedule, and performance parameters of major
    acquisitions.
                                                                                                           3


FAA facilities that control high altitude traffic. However, other modernization
programs have experienced cost, schedule, and performance problems.

Our review of 20 major acquisitions shows 14 of these projects have experienced
cost growth of over $4.3 billion (from $6.8 billion to $11.1 billion), which
represents significantly more than FAA’s FY 2004 $2.9 billion request for
modernization. Also, 13 of the 20 projects account for delays ranging from 1 to
7 years. Many of the 20 projects we reviewed—both old and new—do not have
reliable cost, schedule, or performance baselines, meaning that FAA cannot
effectively plan, manage programs, or meet expectations for improving the safety,
security, and capacity of the National Airspace System. The following chart
provides cost and schedule information on four projects largely managed since
FAA was granted acquisition reform.
                              Estimated                Percent
     Program               Program Costs                Cost              Implementation        Schedule
                         (Dollars in Millions)         Growth                 Schedule           Delay
                        Original      Current                         Original       Current
Wide Area                 $892.4      $2,922.4*          227%        1998-2001     2003-TBD**   5 years
Augmentation
System

Standard Terminal         $940.2          $1,690.2       80%         1998-2005   2002-2012**    7 years
Automation
Replacement System

Local Area                $530.1            $696.1       31%         2002-TBD    2006-TBD**     4 years
Augmentation
System

Integrated Terminal       $276.1            $286.1        4%         2002-2003    2003-2008     5 years
Weather System

    *     This includes the cost to acquire geostationary satellites.
    **    TBD=To Be Determined (costs and schedules are under review).

Problems with acquisition efforts have serious consequences because they result in
costly interim systems, a reduction in units procured, postponed benefits (in terms
of safety and efficiency), or “crowding out” other modernization projects. For
example:

    • The Standard Terminal Automation Replacement System (STARS) replaces
      controller and maintenance workstations with color displays, processors,
      and computer software.        While STARS commenced operations at
      Philadelphia this past year, and recently received approval to deploy to
      other locations, it will be 2 years before STARS is deployed at FAA’s
                                                                                                                4


          largest sites, such as Chicago and Denver. This effort has cost FAA more
          than $1 billion since 1996, but most of these funds were spent on
          developing STARS, not delivering systems.

          When the STARS development schedule began slipping, FAA procured an
          interim system, the Common Automated Radar Terminal System (Common
          ARTS) for about $200 million. FAA is now operating Common ARTS
          (software and processors) at approximately 140 locations. During 2002, the
          STARS program proposed to limit the program to 73 systems at a cost of
          $1.33 billion (instead of $1.69 billion for 182 sites) while trying to identify
          ways to reduce program costs. As of May 2003, no cost savings have been
          confirmed, and a final decision to go to all sites has not been made.

      • The Local Area Augmentation System (LAAS) is a new precision approach
        and landing system that has enjoyed considerable industry support.2 FAA
        expected to have LAAS Category I (CAT I) operational in 2004. It is now
        clear that this milestone cannot be met because of additional development
        work, evolving requirements, and unresolved issues regarding how the
        system will be certified as safe for pilots to use. FAA now expects LAAS
        (CAT I services) to be operational in late 2006. Moreover, the more
        demanding LAAS services (CAT II/III landings planned for 2005) are now
        a research and development effort with an uncertain end date. Additionally,
        costs schedule, and expected benefits for LAAS are under review.

      • The Integrated Terminal Weather System (ITWS) provides air traffic
        managers with a 20-minute forecast of weather conditions near
        airports.3 FAA initially planned to complete deployment of all 38 systems
        by 2003 at a cost of about $286 million, but production costs have
        skyrocketed from $360,000 to $1 million per system. As a result, its
        deployment has stretched out until 2008, and FAA cannot execute the
        program as intended. Absent additional funding, FAA will defer adding
        several planned improvements and may procure fewer systems than
        intended. A decision about ITWS is expected this summer.

      • Controller Pilot Data Link Communications (data link) is a new way for
        controllers and pilots to communicate that is analogous to e-mail and is
        managed as part of the Free Flight program. FAA deferred plans for data

2
    For additional details, see our report FAA Needs to Reset Expectations for LAAS Because Considerable Work Is
    Required Before It Can Be Deployed for Operational Use, Report No. AV-2003-006, December 16, 2002.
3
    For additional details, see our report Integrated Terminal Weather System: Important Decisions Must Be Made on
    the Deployment Strategy, Report No. AV-2003-009, December 20, 2002.
                                                                                    5


       link because the approved baseline of $167 million (for 20 locations
       beginning in 2003) is no longer valid, and because of uncertainty about
       how quickly airlines will equip with new systems. FAA estimates that it
       would cost $237 million for eight locations—an increase of $70 million for
       less than half of the planned locations.

Billion-dollar cost growth with acquisitions is not sustainable or affordable in light
of declining Trust Fund revenues. Further, only 60 percent of FAA’s FY 2004
modernization budget of $2.9 billion will be expended for acquiring new systems;
the remaining funds will be for salaries, FAA facilities, and support contracts.
Four of the 20 projects we reviewed experienced cost growth ranging from 143 to
248 percent—additional cost growth of this magnitude will impact other programs
and limit the number of new initiatives FAA can take on.

There are several billion-dollar projects just getting started that have potential for
cost growth because of their size and complexity. FAA must fund these projects
while at the same time funding programs, such as STARS, that have been delayed
by several years.

   • The En Route Automation Replacement Modernization (ERAM) will
     provide new software and hardware (the “nerve center”) for facilities that
     control high altitude traffic in the United States at an estimated cost of
     $2.1 billion.   By far, ERAM is one of the most expensive and
     software-intensive projects (over 1 million lines of software code), FAA
     has embarked on since the Advanced Automation System. FAA will spend
     over $260 million annually on ERAM beginning in FY 2005.

   • The Next Generation Air/Ground Communications (NEXCOM) is a
     complex effort to replace all of the existing air-to-ground communications
     in the National Airspace System with digital systems. It involves replacing
     50,000 radios with new multi-mode ones, and will require airspace users to
     equip with new radios. The current cost estimate of $986 million for
     NEXCOM reflects only the first stage of a larger program that is expected
     to provide more effective use of the existing radio frequency spectrum and
     allow the transmission of both voice and data on the same channel. Total
     NEXCOM costs are uncertain but will be more than the current estimate.

Cost and schedule baselines for many projects we reviewed are not reliable.
Therefore, decisions are being made with unclear data about what can reasonably
be accomplished or what is affordable. Given the cost growth in the acquisitions
we reviewed, and the fact that FAA is just starting several complex, billion-dollar
                                                                                6


projects, the agency needs to rethink its overall investment strategy for
modernizing the National Airspace System.

FAA needs to take a number of steps to improve its overall management of its
modernization effort. FAA needs to update the cost, schedule, and performance
baselines for many of its major acquisitions, including STARS, ITWS, LAAS, and
WAAS at a minimum. These baselines are misleading because they do not
accurately reflect the true cost, schedule, or performance parameters for the
projects. This process may require FAA to establish a new strategy that
accelerates some projects and defers others. In addition, FAA needs to develop—
and use—performance goals for assessing progress of its major acquisitions. This
should involve holding staff and contractors accountable for keeping projects
within cost and schedule, as appropriate. This is a step any business that pursues
advanced technologies would take.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On June 11, 2003, we met with the Associate Administrator for Research and
Acquisitions, and staff from Air Traffic Services to obtain their oral comments to
our discussion draft report. We incorporated FAA’s comments where appropriate
and made adjustments to this report. FAA officials from those offices generally
agreed with our analysis and recommendations. We are requesting that FAA
provide written comments to the final report.


ANALYSIS AND RECOMMENDATIONS
FAA’s mission is to promote the safe, orderly, and expeditious flow of air traffic
in the National Airspace System. To do so, FAA operates a vast network of
radars, automated data processing, navigation, and communications equipment
24 hours a day, 365 days a year. FAA has spent $35 billion since the
modernization began in the 1980s, and is requesting $2.9 billion for FY 2004 to
modernize the National Airspace System.

We analyzed 20 major FAA acquisitions with respect to cost, schedule, and key
issues that affect their implementation. These projects include new controller
displays, new precise navigation and landing systems, and new weather systems
that can help controllers respond to and recover from bad weather. The
                                                                                                     7


20 acquisitions we reviewed represent about 70 percent of the available
F&E funds allocated for air traffic control acquisitions for FY 2004.

Progress has been made over the last several years with FAA acquisitions,
including the Free Flight Phase 1 initiative which introduced, among other things,
new automated controller tools. However, we found that a wide range of
acquisitions are experiencing cost, schedule, and performance problems.

Our review of 20 major acquisitions shows 14 projects have experienced cost
growth of over $4.3 billion (from $6.8 billion to $11.1 billion), which represents
substantially more than FAA’s FY 2004 $2.9 billion request for modernization.
Also, 13 of the 20 projects account for delays ranging from 1 to 7 years.
Exhibit B provides details of cost and schedule variances for 17 projects, while
Exhibit C provides cost and schedule data of 3 projects just getting started.

Cost and schedule variances in 17 of the 20 acquisitions we reviewed are the result
of unstable requirements, complex software development, human factors concerns,
and problems in certifying new systems as safe for pilots to use. Problems with
cost growth, schedule slips, and performance shortfalls have serious
consequences—they result in costly interim systems, a reduction in units procured,
postponed benefits (in terms of safety and efficiency), or “crowding out” other
projects. Exhibit D provides the cost, schedule, and status of the 20 major
acquisitions we reviewed in detail.


FAA Needs to Update Cost, Schedule, and Performance
Baselines for Its Major Acquisitions
Our work shows that many acquisitions—both old and new—do not have reliable
cost estimates or schedules, and have experienced performance problems.
Problems are traceable to a number of factors, including poorly defined cost
estimates, changing requirements, and complex and substantial software
development, as shown in the following examples.

      • WAAS, a new satellite-based navigation system, has experienced a long
        history of uncertainty regarding how much the new system will cost, when
        it will be delivered, and what benefits can be obtained. FAA now plans to
        have WAAS operational in July 2003, but additional work will be required
        to expand WAAS coverage (through additional ground stations). WAAS
        was intended to provide Category I4 performance to the majority of the
        Nation’s airports, but will provide something less than promised when the
4
    Category I precision approach has a 200-foot ceiling/decision height and visibility of ½ mile.
                                                                             8


   system is deployed. FAA needs to make a downward adjustment in the
   $2.9 billion WAAS cost estimate to reflect the fact the agency will not
   pursue Category I performance.

• STARS replaces controller and maintenance workstations with color
  displays, processors, and computer software. While STARS commenced
  operations at Philadelphia this past year, and recently received approval to
  deploy to other locations, it will be 2 years before STARS can be deployed
  at FAA’s largest sites, such as Chicago and Denver. The program has cost
  FAA more than $1 billion since 1996. Most of these funds were spent on
  developing STARS, not delivering systems.              When the STARS
  development schedule began slipping, FAA procured an interim system,
  Common ARTS, for about $200 million. FAA is now operating Common
  ARTS (software and processors) at approximately 140 locations.

   In FY 2002 alone, FAA reprogrammed over $40 million from other
   modernization efforts (data link communications, oceanic modernization,
   and instrument landing systems) to pay for cost increases with STARS. As
   a result of these cost and schedule problems, in March 2002 FAA officials
   proposed scaling back the program from 182 systems for $1.69 billion to a
   revised estimate of 73 systems for $1.33 billion. No final decision has been
   made, and FAA is currently reevaluating how many STARS systems it can
   afford. FAA officials must make a smart business decision on how to
   complete terminal modernization in the most cost-effective manner
   possible.

• ITWS provides air traffic managers with a 20-minute forecast of weather
  conditions near airports. FAA initially planned to complete deployment of
  all 38 systems by 2003 at a cost of about $286 million, but production costs
  have skyrocketed from $360,000 to $1 million per system. FAA cannot
  execute the program as intended and, absent additional funding, will defer
  adding several planned improvements and may procure fewer systems than
  intended. A decision about ITWS is expected this summer.

• LAAS is a new precision approach and landing system. FAA officials
  expected to have Category I services operational in 2004. It is now clear
  that this milestone cannot be met because of additional development work,
  evolving requirements, and unresolved issues regarding how the system
  will be certified as safe for pilots to use. Moreover, the more demanding
                                                                                                                     9


           Category II/III5 services (planned for 2005) are now a research and
           development effort with an uncertain end date. This means that benefits
           associated with the new precision approach and landing system will be
           postponed. FAA needs to reset expectations with respect to how much the
           system will cost, when it will be delivered, and benefits that can be
           obtained.

Another project that warrants attention is the Advanced Technologies and Oceanic
Procedures (ATOP) program, which will modernize equipment at facilities that
manage air traffic principally over the Atlantic and Pacific Oceans. Since 1995,
FAA has spent over $300 million to modernize its oceanic facilities, but past
efforts met with little success due to, among other things, poor contractor
performance.

Under a new initiative, in June 2001 FAA awarded a $217 million contract for
ATOP to provide oceanic systems in Anchorage, New York, and Oakland.
However, since the contract was awarded, the contractor has experienced delays
primarily due to problems completing software development and testing. FAA
and the contractor planned to rely extensively on non-developmental software, but
additional software development was needed to meet agency requirements. The
contractor is 10 months behind schedule, and FAA is reassessing when the first
site will be operational in Oakland. To date, schedule delays have not resulted in
cost growth because this is a fixed price contract. To control costs with this
acquisition, FAA needs to keep requirements stable.

FAA needs to update the cost, schedule, and performance baselines of its major
acquisitions. FAA’s own Acquisition Management System states that reliable
cost, schedule, and performance baselines are essential to effectively plan and
manage the modernization effort.

There is little room for continued cost growth or schedule slippage. This is
because funding for the modernization account as outlined in the Administration’s
reauthorization proposal will remain essentially flat over the next several years.
Moreover, only 60 percent of FAA’s FY 2004 request for Facilities and
Equipment is expected to be spent specifically on acquiring new air traffic control
systems, whereas the remaining funds are requested for FAA facilities, mission
support (i.e., support contracts), and personnel expenses. Figure 1 illustrates
FAA’s FY 2004 request for the modernization account.


5
    Category II precision approach has a 100-foot ceiling/decision height and visibility of ¼ mile, and Category III
    precision approach and landing has a decision height less than 100 feet and visibility down to the airport surface.
                                                                                      10



                               Figure 1. FAA's FY 2004 Budget Submission
                                         (Facilities and Equipment)


                           Personnel &
                                                                Air Traffic Control
                              Related
                                                                Systems
                            Expenses
                                15%                                   60%


                 Mission
                 Support
                   11%




                  Facilities
                    14%




Historically, FAA acquisitions have experienced considerable cost growth and
schedule slips. As shown in Exhibit B, 4 of the 20 acquisitions have experienced
cost growth ranging from 143 to 248 percent. Any further cost growth in these or
other projects will result in FAA lengthening the implementation schedules and
postponing benefits (as occurred with ITWS and STARS).


Billion-Dollar Projects Early in the Acquisition Phase That Need
Attention
A key focus for FAA must be effective cost controls for programs just getting
started that are high risk efforts because of their size, complexity, and level of
developmental work required, such as ERAM and NEXCOM.

   • ERAM, with an estimated cost of $2.1 billion, is critical because it will
     replace aging Host computer hardware and software (the central nervous
     system) for facilities that manage high altitude air traffic. It is one of the
     most expensive, software-intensive acquisitions FAA has embarked on
     since the Advanced Automation System.              FAA will spend over
     $260 million annually on ERAM beginning in FY 2005.

      FAA awarded a contract for ERAM in December 2002. ERAM is a high
      risk effort and will require sustained management attention because of its
      size, complexity, and the fact that it involves over 1 million lines of
      software code. FAA officials told us that progress and problems with
      ERAM will affect many efforts, including new controller tools, data link,
                                                                              11


      planned upgrades for the Display System Replacement, and airspace
      redesign efforts. We intend to initiate a review of ERAM later this year.

   • NEXCOM is a complex effort to replace all of the existing air-to-ground
     communications in the National Airspace System with digital systems. It
     involves replacing 50,000 radios with new multi-mode ones, and will
     require airspace users to equip with new radios. The current cost estimate
     of $986 million for NEXCOM reflects only the first stage of a larger
     program that is expected to provide more effective use of the existing radio
     frequency spectrum and allow the transmission of both voice and data on
     the same channel. Total NEXCOM costs are uncertain, but will be more
     than the current estimate of $986 million.

      NEXCOM has been controversial with the airlines because of timing issues
      and concerns about FAA’s preferred technology. Key issues focus on
      (1) timing of moving forward with a NEXCOM rulemaking that will
      require airspace users to equip with new radios; (2) examining linkages
      with other programs, including data link; and (3) harmonizing efforts for
      new communications with other countries that are also revamping their air
      traffic communications.

Continued cost growth could also impact or “crowd out” future projects. As
Figure 2 shows, cost control is essential because FAA must fund a number of new
complex initiatives while moving forward with ongoing efforts, such as STARS
and WAAS that have been delayed for several years.
                                                                                                           12


                            Figure 2. Funding Profiles for Four Key Major Acquisitions

             $350




             $300



             $250




             $200                                                                                     STARS
  Millions




                                                                                                      ERAM
                                                                                                      WAAS
             $150                                                                                     NEXCOM




             $100



             $50




              $0
                    FY03                  FY04                    FY05                   FY06
                                                   Fiscal Years




Source: FAA’s Capital Investment Plan, Detailed Financial Baseline, January 23, 2003, and ERAM Final Investment
Decision, June 12, 2003

FAA expects to spend $1.8 billion on these four projects alone between FYs
2004 and 2006. This is exclusive of efforts to move forward with other programs,
such as a $270 million additional upgrade to controller displays at facilities that
control high altitude traffic, and efforts to improve runway safety. Successfully
managing the execution of these complex efforts in this time period will require a
level of cost control heretofore unseen by FAA since it began the modernization
effort in the early 1980s.

Many cost and schedule baselines for the 20 projects reviewed are not reliable.
For example, a number of projects are operating on baselines established almost
4 years ago. We note that WAAS and LAAS baselines were agreed to in
September 1999. As a result, it is unclear what reasonably can be accomplished or
what is affordable.

As we noted in our report on the top management issues facing the Department of
Transportation, FAA can take a number of steps to improve how it manages the
                                                                                                 13


acquisition of new systems.6 FAA needs to strengthen contract oversight, make
greater use of Defense Contract Audit Agency audits, and institute cost control
mechanisms for software-intensive contracts. FAA is taking steps to address these
concerns, but continued attention to these matters is needed.

FAA also needs to develop performance goals to assess progress with major
acquisitions. FAA has established performance goals (number of flights delayed)
for its Air Traffic Services but has not done so for its major acquisitions. In its
FY 2004 budget request, one of FAA’s goals for improving mission support— to
achieve 80 percent of designated cost and schedule estimates for critical
programs—would serve as a useful starting point for developing performance
goals for major acquisitions. FAA is just beginning to develop performance goals
for major acquisitions, and agency officials told us that much work remains before
they can be used for tracking progress with major acquisitions and making
investment decisions. Developing performance goals for acquisitions is a step any
business pursuing advanced technologies would take, and it is consistent with
FAA’s Acquisition Management System.


RECOMMENDATIONS
FAA must take steps to control costs of acquisitions and get as much as it can with
each acquisition dollar. Therefore, we recommend that FAA:

     1. Update the cost, schedule, and performance baselines for many of its major
        acquisitions, including STARS, ITWS, LAAS, and WAAS at a minimum.
        These baselines are misleading because they do not accurately reflect the
        true cost, schedule, or performance parameters for the projects. This
        process may require FAA to establish a new strategy that accelerates some
        projects and defers others.

     2. Develop—and use—performance goals for assessing progress with its
        major acquisitions. This should involve holding staff and contractors
        accountable for keeping projects within cost and schedule, as appropriate.




6
    For additional details, see Top Management Challenges, Department of Transportation, PT-2003-012,
    January 21, 2003.
                                                                                 14


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On June 11, 2003, we met with the Associate Administrator for Research and
Acquisitions, and staff from Air Traffic Services to obtain their oral comments to
our discussion draft report. We incorporated FAA’s comments where appropriate
and made a number of adjustments to the report. Based on FAA’s comments, we
adjusted the estimated cost of ERAM to reflect the most current baseline
($2.1 billion) that was established earlier this month. FAA officials from those
offices generally agreed with our analysis and recommendations.


ACTION REQUIRED BY FAA
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 days. If you concur with
our recommendations, please indicate for each recommendation the specific
actions taken or planned and target dates for completion. If you do not concur,
please provide your rationale. Furthermore, you may provide alternative courses
of action that you believe would resolve the issues presented in this report. If you
have any questions concerning this report, please contact me at (202) 366-1992, or
David A. Dobbs, Assistant Inspector General for Aviation Audits, at (202) 366-
0500.

                                         #
                                                                               15




EXHIBIT A. AUDIT OBJECTIVE, SCOPE AND
METHODOLOGY
We performed our review of FAA’s major acquisitions from December 2002
through May 2003. The objective of our review was to evaluate program costs
and schedules, and identify key issues affecting the successful implementation of
20 major acquisitions. These 20 acquisitions are instrumental in FAA’s efforts to
modernize the National Airspace System. We focused primarily on project
funding from the Facilities and Equipment Account—not total life-cycle costs.
This review was performed in accordance with Government Auditing Standards as
prescribed by the Comptroller General of the United States.

We collected cost and schedule information for the 20 acquisitions from the
inception of the individual acquisitions through February 2003. In addition, we
reviewed key program documents such as acquisition plans, program baselines,
and prime contracts (and contract modifications) for each acquisition reviewed.
We spoke with key personnel responsible for developing and implementing these
projects. We also evaluated monthly program status reports, team meeting
minutes, and Joint Resources Council (a key agency decisionmaking body)
decisions to help us identify and track key issues affecting implementation of the
acquisitions.




Exhibit A. Audit Objective, Scope and Methodology
                                                                                                                16




EXHIBIT B. COST AND SCHEDULE VARIANCES
FOR EXISTING PROGRAMS
       Program                  Estimated                      Percent
      (Defined in             Program Costs                     Cost           Implementation         Schedule
      Exhibit D)           (Dollars in Millions)               Growth              Schedule            Delay
                          Original      Current                            Original       Current
NIMS                       $100.8       $350.9                   248%     1997-2000      2001-2005     5 years

WAAS                         $892.4        $2,922.4*             227%     1998-2001    2003-TBD**      5 years

AMASS                         $59.8           $146.0             144%     1994-1996     2001-2003      7 years

NEXCOM                       $406.0           $986.4             143%     2002-2008     2002-2010      2 years

STARS                        $940.2        $1,690.2               80%     1998-2005    2002-2012**     7 years

OASIS                        $174.7           $251.0              44%     1998-2001     2002-2005      4 years

ASAS                         $207.6           $296.1              43%       1982-         1982-        N/A***
                                                                           Ongoing       Ongoing
LAAS                         $530.1           $696.1              31%     2002-TBD     2006-TBD**      4 years

ADS-B                        $215.1           $268.4              25%     2001-TBD      2001-2012       N/A

ASR-11                       $743.3           $916.2              23%     2000-2005     2003-2010      5 years

WARP                         $126.4           $152.7              21%     1999-2000     2002-2003      3 years

ASDE-X                       $424.3           $505.2              19%     2003-2007     2003-2007       N/A

ITWS                         $276.1           $286.1              4%      2002-2003     2003-2008      5 years

ATCBI-6                      $281.8           $289.6              3%      2000-2004     2002-2007      3 years

FTI                          $205.5           $205.7              N/A     2002-2008        TBD         1 year

FFP1                         $726.9           $695.5              N/A     1998-2002     1998-2002    Completed

FFP2                         $546.2           $510.5              N/A     2003-2005     2003-2006      1 year

Total                     $6,857.2        $11,169.0                                                  1 to 7 years
      *     This includes the cost to acquire geostationary satellites.
      **    Costs and schedules are under review.
      ***   Not applicable




Exhibit B. Cost and Schedule Variances for Existing Programs
                                                           17




EXHIBIT C. ESTIMATED COSTS AND SCHEDULE
FOR NEW PROGRAMS
    Program           Estimated
   (Defined in     Program Costs         Implementation
   Exhibit D)    (Dollars in Millions)      Schedule
ERAM                  $2,154.6             2009-2010

ATOP                   $548.2              2004-2006

ECG                    $315.1              2003-2005

Total                $3,017.9




Exhibit C. Estimated Costs and Schedule for New Programs
                                                                                                                                                   18




EXHIBIT D. STATUS OF FAA’S MAJOR ACQUISITIONS (AS OF MAY 2003)
Program Name, Description,    Original         Current            Original           Current         Status and Key Issues Affecting
Purpose, and Contractor       Program Cost     Program Cost       Deployment         Deployment      Implementation
Name                          Estimate         Estimate           Schedule           Schedule
Standard             Terminal $940.2 Million   $1.7 Billion       Start: 1998        Start: 2002     STARS commenced operations in Philadelphia
Automation        Replacement                  (costs are under   Finish: 2005       Finish: 2012    this past year. Since 1996, FAA has spent
System (STARS):                                review)                                               more than $1 billion on STARS, including
Replaces controller and                                                                              $239.7 million on an alternative, the Common
maintenance workstations with                                                                        Automated Radar Terminal System (Common
color displays, processors, and                                                                      ARTS).     Additional development work is
computer software at terminal                                                                        required before STARS can replace Common
air traffic control facilities.                                                                      ARTS throughout the National Airspace
STARS requires digital radar                                                                         System (NAS). During 2002, the STARS
data input.                                                                                          program proposed to limit the program to
                                                                                                     73 systems at a cost of $1.33 billion (instead of
Contractor: Raytheon                                                                                 $1.7 billion for 182 sites). No final decision
                                                                                                     has been made.

Wide Area Augmentation $892.4 Million          $2.9 Billion       Start: 1998        Start: 2003     After several years of delay and vexing
System (WAAS):                                 (costs are under   Finish: 2001       Finish: To be   technical problems, FAA now plans to begin
Provides the augmentation                      review)                               determined      providing WAAS initial service in July 2003.
needed to make the Global                                                                            However, WAAS will not provide Category I
Positioning System (GPS)                                                                             services as originally planned.    A key issue
fully usable for en route,                                                                           for    WAAS        is    acquiring  additional
terminal, and non-precision                                           Airspace users must            geostationary satellites (at a cost of
approaches.                                                           equip to obtain benefits.      $1.3 billion) to improve the WAAS signal in
Contractor: Raytheon                                                                                 space. FAA recently awarded a contract for
                                                                                                     one additional satellite. FAA needs to make a
                                                                                                     downward adjustment in WAAS costs to
                                                                                                     reflect that it will not pursue Category I
                                                                                                     performance.




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                                    19


Program Name, Description,         Original       Current            Original           Current         Status and Key Issues Affecting
Purpose, and Contractor            Program Cost   Program Cost       Deployment         Deployment      Implementation
Name                               Estimate       Estimate           Schedule           Schedule
Local Area Augmentation $530.1 Million            $696.1 Million     Start: 2002        Start: 2006     FAA is working to reset LAAS cost, schedule,
System (LAAS):                                    (costs are under   Finish: To be      Finish: To be   and performance goals. FAA intended to have
                                                  review)            determined         determined      LAAS (Category I) operational in 2004. It is
LAAS is a new precision                                                                                 now clear that this milestone cannot be met
approach and landing system                                                                             because of additional development work,
that is expected to boost                                                                               evolving requirements, and unresolved issues
airport arrival rates under all                                           Airspace users must           regarding how the new system will be certified
weather conditions. It provides                                           equip to obtain benefits.     as safe for pilots to use. Moreover, the more
the augmentation needed at                                                                              demanding Category II/III service (planned for
160 airports to make GPS fully                                                                          2005) is now a research and development
usable for Categories I, II, and                                                                        effort with an uncertain end date.
III precision approaches at
selected airports.

Contractor: Honeywell

Integrated        Terminal $276.1 Million         $286.1 Million     Start: 2002        Start: 2003     ITWS is an important acquisition because it
Weather System (ITWS):                                               Finish: 2003       Finish: 2008    provides traffic managers with 20-minute
                                                                                                        forecasts of weather conditions to improve the
Acquires and integrates
                                                                                                        safety and efficiency of terminal airspace
weather data from multiple
                                                                                                        operations.    The first production system
sensors, and provides traffic
                                                                                                        became operational in Kansas City on April 10,
management units with a
                                                                                                        2003. Production costs have skyrocketed from
graphic display of weather
                                                                                                        $360,000 to $1.1 million per system. FAA
information that needs no
                                                                                                        intends to extend the deployment schedule
meteorological interpretation.
                                                                                                        through 2008—a 5-year delay—and may
                                                                                                        procure fewer systems than planned.
Contractor: Raytheon




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                                    20


Program Name, Description,        Original        Current           Original         Current          Status and Key Issues Affecting
Purpose, and Contractor           Program Cost    Program Cost      Deployment       Deployment       Implementation
Name                              Estimate        Estimate          Schedule         Schedule
Next Generation Air/Ground         $406 million    $986.4 million   Start: 2002      Start: 2002      NEXCOM is a complex and ambitious
Communications                                                      Finish: 2008     Finish: 2010     undertaking because it replaces all of the
(NEXCOM):                                                           (key site)                        existing air/ground communications in the
Replaces     existing analog                                                                          NAS, including 6,000 radios in NEXCOM’s
radios and related equipment                                                                          initial phase. New multi-mode radios have
with digital systems, including                                                                       been installed in Jacksonville Center, have
multi-mode radios. It is a                                                                            performed satisfactorily in tests, and are in
multi-segmented program                                                                               daily use. FAA is working with industry to
expected to meet the radio                                                                            develop a plan (and related business case) for
frequency needs of the NAS                                                                            moving forward. Cost growth to date is
well past 2030. Later phases                                          NEXCOM will require users       primarily associated with the additional
of NEXCOM are expected to                                             to equip with new radios.       software and hardware requirements. We note
allow the exchange of both                                                                            that the current cost estimate of $986.4 million
voice and data communication                                                                          only reflects the initial phase of the effort and
on the same channel within the                                                                        much work remains to get accurate cost
existing frequency spectrum.                                                                          estimates for remaining segments.

Contractor: ITT

NAS Infrastructure            $100.8 Million      $350.9 Million    Start: 1997      Start: 2001      FAA believes NIMS is an important effort to
Management System                                                   Finish: 2000     Finish: 2005     help the agency maintain and support many
(NIMS):                                                                                               elements of the NAS such as radars. NIMS
Provides a centralized                                                               (under review)   costs have increased by $250 million. Cost
management system to                                                                                  increases are attributable to increased
improve the services provided                                                                         requirements adopted in 2000. FAA has
to the NAS, as well as to                                                                             reprogrammed funds for NIMS to other
operate and maintain the                                                                              projects. FAA intends to rebaseline the NIMS
facilities, systems, and                                                                              (principally Phase 2) cost and schedule later
equipment that comprise the                                                                           this year.
NAS infrastructure, such as
communications equipment,
radars, and navigation aids.
Contractor: Digicom


Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                                 21


Program Name, Description,         Original         Current          Original       Current        Status and Key Issues Affecting
Purpose, and Contractor            Program Cost     Program Cost     Deployment     Deployment     Implementation
Name                               Estimate         Estimate         Schedule       Schedule
Operational and                    $174.7 Million   $251 Million     Start: 1998    Start: 2002    FAA has conducted operational readiness
Supportability                                                       Finish: 2001   Finish: 2005   demonstrations at two sites (Anderson, South
Implementation System                                                                              Carolina, and Seattle, Washington). In our
(OASIS):                                                                                           December 2001 report, we estimate that FAA
                                                                                                   could realize cost savings of nearly
Replaces the current Model                                                                         $500 million over the 7-year OASIS lease by
One Full Capacity (M1FC)                                                                           consolidating Flight Service Stations now
system at the 61 Automated                                                                         while OASIS is in the early stages of
Flight Service Stations and                                                                        deployment. Based on our recommendation,
will provide an integrated                                                                         FAA is conducting a review of Flight Service
system that will increase                                                                          Station functions in accordance with the Office
operational capabilities such as                                                                   of Management and Budget Circular A-76.
Flight Data Processing and
Weather Graphics.

Contractor: Harris Corp.

Airport Surveillance Radar $743.3 Million           $916.2 Million   Start: 2000    Start: 2003    ASR-11 program costs have grown by
(ASR-11):                                                            Finish: 2005   Finish: 2010   $172.9 million and the schedule was delayed
                                                                                                   by 3 years due to technical problems. This past
Replaces aging analog radar at                                                                     year, FAA made a number of improvements
small terminal facilities with                                                                     and commenced operational testing. FAA’s
digital radar. ASR-11 can be                                                                       key issue is to successfully complete
used by Common ARTS and                                                                            independent testing in preparation for an in-
STARS. This is a joint effort                                                                      service decision. FAA plans to make a
with the Department of                                                                             determination on the suitability of the radar for
Defense.                                                                                           deployment throughout the NAS in July 2003.

Contractor: Raytheon




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                               22


Program Name, Description,     Original          Current          Original          Current        Status and Key Issues Affecting
Purpose, and Contractor        Program Cost      Program Cost     Deployment        Deployment     Implementation
Name                           Estimate          Estimate         Schedule          Schedule
Airport Surface Detection $424.3 Million         $505.2 Million   Start: 2003       Start: 2003    ASDE-X is an important safety initiative,
Equipment-X (ASDE-X):                                             Finish: 2007      Finish: 2007   initially designed to provide a low-cost
Provides surveillance                                                                              alternative to FAA’s existing ASDE-3 radar
equipment to prevent runway                                                                        systems. The program now includes ASDE-X
incursions at a large number of                                                                    product improvement upgrades that combine
airports. Implementation of                                                                        the 25 initial and 8 ASDE-3 sites. FAA is
these systems will improve                                                                         scheduled to deploy the first system in August
controller    situational                                                                          2003.
awareness of the airport
movement area.

Contractor: Sensis Corp and
Raytheon

Automatic           Dependent $215.1 Million     $268.4 Million   Start: 2001       Start: 2001    FAA has initiated ADS-B demonstration
Surveillance-Broadcast           (Part of Safe                    (Limited          Finish 2012    projects in Alaska and the Ohio River Valley.
(ADS-B):                         Flight 21)                       deployment to     (NAS-wide).    Progress has been made, but considerable
ADS-B is an air-to-air, air-to-                                   Bethel, Alaska)                  human factors work remains for both
ground communications,                                            Finish: To be                    controllers and pilots. Airspace users must
navigation and surveillance                                       determined                       equip to obtain benefits. ADS-B is now a key
technology that relies on the                                                                      element in other FAA programs, including the
GPS to broadcast the positions                                                                     Airport Surface Detection Equipment-X effort,
of properly equipped aircraft                                                                      which will help prevent accidents on runways.
and surface vehicles. It is part                                    Airspace users must equip
of the Safe Flight 21 Program,                                      to obtain benefits.
and is focused on initiatives in
the Ohio River Valley and
Alaska.

Contractor: UPS Aviation
Technologies




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                                  23


Program Name, Description,        Original         Current          Original           Current        Status and Key Issues Affecting
Purpose, and Contractor           Program Cost     Program Cost     Deployment         Deployment     Implementation
Name                              Estimate         Estimate         Schedule           Schedule
Free Flight Phase 2 (FFP2):       $546.2 Million   $510.5 Million   Start: 2003        Start: 2003    FAA has decided to defer plans for expanding
Geographically expands the                                          Finish: 2005       Finish: 2006   Controller Pilot Data Link Communications
deployment of the User                                                                                from one facility in Miami to other locations
Request Evaluation Tool and                                                                           because the approved baseline of $167 million
Traffic Management Advisor                                                                            is no longer valid, and because of uncertainty
Single Center to additional                                                                           about how quickly airspace users will purchase
locations. It introduces                                              Data link will require          and install new avionics.
Controller Pilot Data Link                                            airspace users to equip to
Communications and                                                    obtain benefits.
accelerates research in several
areas.

Contractor: Various

Aviation Safety Analysis          $207.6 Million   $296.1 Million   Start: 1982        Start: 1982    ASAS has functioned as an umbrella funding
System (ASAS):                                                      Finish:            Finish:        mechanism for a variety of information
ASAS is a program providing                                         Ongoing            Ongoing        technology projects within the office of
a variety of information                                                                              Aircraft Certification and Regulation. ASAS
technology hardware and                                                                               funds in 2003 will be for 24 different
software solutions in support                                                                         projects/systems.
of the five components of
Aircraft Certification and
Regulation activities (Flight
Standards, Aviation Medicine,
Rulemaking, Aircraft
Certification, and Accident
Investigations).

Contractor: Various




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                        24



Program Name, Description,   Original       Current          Original       Current        Status and Key Issues Affecting
Purpose, and Contractor      Program Cost   Program Cost     Deployment     Deployment     Implementation
Name                         Estimate       Estimate         Schedule       Schedule
Air Traffic Control Beacon $281.8 Million   $289.6 Million   Start: 2000    Start: 2002    The ATCBI-6 will replace aging ATCBI
Interrogator (ATCBI-6):                                      Finish: 2004   Finish: 2007   equipment (Models 4 and 5) to maintain
A ground-based system that                                                                 ground       surveillance    and       decrease
interrogates      transponders,                                                            supportability costs. The first ATCBI-6 was
receives and processes replies                                                             commissioned in July 2002. According to
from transponders, determines                                                              FAA, the agency may shift funds from
the range and direction to/from                                                            ATCBI-6 to other higher priority efforts, which
aircraft, and forwards the                                                                 would cause implementation delays to 2007.
information to appropriate air
traffic control automation
systems. Replies from aircraft
provide transponder
identification and altitude data,
which are displayed on the
controller’s screen.

Contractor: Raytheon

Airport Movement Area $59.8 Million         $146 Million     Start: 1994    Start: 2001    FAA has been developing AMASS since 1991.
Safety System (AMASS):                                       Finish: 1996   Finish: 2003   Overall, AMASS is 7 years behind its original
Provides software                                                                          schedule estimate and $86 million over its
enhancement for the Airport                                                                original cost projections made in 1993. FAA
Surface Detection Equipment                                                                reports that 27 of 37 planned operational
(ASDE-3) radar designed to                                                                 systems have been commissioned. Based on a
monitor airport surface traffic                                                            DOT/OIG recommendation, FAA issued a
and alert air traffic controllers                                                          revised schedule with the last system projected
to potential collisions on the                                                             to be commissioned in the 4th quarter of 2003.
runways.

Contractor:
Northrup/Grumman



Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                                25




Program Name, Description,     Original         Current          Original        Current        Status and Key Issues Affecting
Purpose, and Contractor        Program Cost     Program Cost     Deployment      Deployment     Implementation
Name                           Estimate         Estimate         Schedule        Schedule

Weather         and     Radar $126.4 Million    $152.7 Million   Start: 1999     Start: 2002    FAA completed deployment of WARP on
Processor (WARP):                                                Finish: 2000    Finish: 2003   controller displays in the continental United
Provides          en      route                                                                 States in December 2002. FAA intends to
meteorologists and air traffic                                                                  install the last WARP in Alaska later this year,
controllers with more accurate                                                                  which is 3 years later than planned. Program
graphic weather products to                                                                     delays were primarily due to the additional
help       identify    weather                                                                  time needed to resolve air traffic controller
conditions that may adversely                                                                   human factor concerns and fix software
impact air traffic control and                                                                  development problems found during testing.
aircraft operations.

Contractor: Harris Corp.

Free Flight Phase 1 (FFP1):    $726.9 Million   $695.5 Million   Start: 1998     Start: 1998    FFP1 reflects FAA’s “build a little, test a little,
Provides new information- (Limited                               Finish: 2002    Finish: 2002   and deploy a little” approach to acquisitions.
exchange               systems Deployment)                                                      The FFP1 program is complete, except for
(Collaborative       Decision-                                                                  one User Request Evaluation Tool site. By far,
Making        and      Surface                                                                  the most cost-effective FFP1 initiative has been
Movement       Advisor)    and                                             Completed            Collaborative Decision-Making, which linked
automated controller tools                                                                      FAA’s command center and airline operations
(Center TRACON Automation                                                                       centers and allowed for greater exchange of
System and User Request                                                                         information. Program costs reflect costs for
Evaluation Tool). This is a                                                                     limited deployment at select locations and
limited deployment.                                                                             sustaining those locations through FY 2007.

Contractor: Various




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                              26



Program Name, Description,    Original          Current            Original       Current        Status and Key Issues Affecting
Purpose, and Contractor       Program Cost      Program Cost       Deployment     Deployment     Implementation
Name                          Estimate          Estimate           Schedule       Schedule

En      Route     Automation $2,154.6 Billion   $2,154.6 Billion   Start: 2009    Start: 2009    ERAM is a critical effort because it will
Modernization (ERAM):                                              Finish: 2010   Finish: 2010   upgrade hardware and software (i.e, “the
Replaces the Host computer                                                                       central nervous system”) for facilities that
hardware      and    software,                                                                   control high altitude air traffic. FAA awarded
including the Host backup                                                                        the prime contract to Lockheed/Martin in
system, and associated support                                                                   December 2002, with Raytheon as a major
infrastructure.                                                                                  subcontractor. While just getting started, this
                                                                                                 is a high risk program because of its size, the
Contractor:                                                                                      amount of software involved (over 1 million
Lockheed/Martin and                                                                              lines of software code), and development
Raytheon                                                                                         needed for some functions to enhance the flow
                                                                                                 of air traffic.

Advanced Technologies and $548.2 Million        $548.2 Million     Start: 2004    Start: 2004    In June 2001, FAA awarded a $217 million
Oceanic Procedures                                                 Finish: 2006   Finish: 2006   fixed price contract to Lockheed/Martin to
(ATOP):                                                                                          provide oceanic systems in Anchorage, New
Modernizes FAA facilities that                                                                   York, and Oakland.       The contractor has
are responsible for managing                                                                     experienced significant problems completing
large segments of airspace                                                                       software development and testing.        The
over the Atlantic and Pacific                                                                    contractor is 10 months behind the contract
Oceans. FAA plans call for an                                                                    schedule.    Because this is a fixed price
integrated system for flight                                                                     contract, the schedule delays have not had a
data processing, detecting                                                                       cost impact on FAA at this time.
conflicts between aircraft, data
link,      and     surveillance
capabilities.

Contractor:
Lockheed/Martin




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
                                                                                                                                                       27


Program Name, Description,           Original            Current             Original       Current        Status and Key Issues Affecting
Purpose, and Contractor              Program Cost        Program Cost        Deployment     Deployment     Implementation
Name                                 Estimate            Estimate            Schedule       Schedule
En Route Communications              $315.1 Million      $315.1 Million      Start: 2003    Start: 2003    ECG is one of the first initiatives aimed at
Gateway (ECG):                                                               Finish: 2005   Finish: 2005   modernizing en route automation.      At this
ECG will replace the existing                                                                              time, the program is on schedule; however,
communications gateway at                                                                                  according to FAA officials, the agency may
20 en route facilities that                                                                                reduce ECG funding to support other high
control high altitude air traffic.                                                                         priority programs, which could delay the
The program is important to                                                                                program.
provide a more robust
infrastructure to support future
en route systems, such as the
En       Route      Automation
Modernization program.

Contractor:
Lockheed/Martin

FAA      Telecommunications          $205.5 Million      $205.7 Million      Start: 2002    To be          The FTI program is key to FAA’s efforts to
Infrastructure (FTI):                (Operations and     (Operations and     Finish: 2008   determined     transition from supporting multiple networks to
FTI is designed to phase out         Maintenance         Maintenance                                       a single network. The bulk of FTI will be
older     telecommunications         cost is estimated   cost is estimated                                 funded through FAA’s Operations account—
systems and replace them with        to be $1.7          to be $3.5                                        the cost estimate for Operations and
one provider responsible for         Billion.)           Billion.)                                         Maintenance has increased by $1.8 billion
operating and maintaining the                                                                              (from $1.7 billion to $3.5 billion). FAA is in
network.                                                                                                   the process of rebaselining the program, and
                                                                                                           decisions regarding cost and schedule for FTI
Contractor:                                                                                                are not expected until later this year.
Harris Corporation




Exhibit D. Status of FAA’s Major Acquisitions (as of May 2003)
